PrimeWay VISA Additional Disclosures
These Additional Disclosures are incorporated by reference into your PrimeWay Visa Credit Card Agreement
and Disclosure Statement. Please retain this document with your Credit Card Agreement and Disclosure
Statement for future reference.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

9.49%- 14.99% APR

Annual Percentage Rate
(APR) for Cash Advances

17.95% APR

Penalty Rate and When it
Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases and balance transfers if you pay your entire
balance by the due date each month. We will begin charging interest on cash
advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Federal Reserve Board

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Federal Reserve Board at
http://www.federalreserve.gov/creditcard.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

None

Transaction Fees
• Foreign Transaction

Up to 1% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Returned Payment
Revised 07/01/2013

Up to $25
Up to $25
Federally Insured by the NCUA.

Credit Card Agreement and Disclosure Statement for Your
PrimeWay FCU Visa Account
Notice: Read and retain this copy of your Credit Card Agreement
and Disclosure Statement for future reference. Your agreement
to these provisions, as amended from time to time will be shown
by your application for the card, your signature on the credit
agreement, your acceptance of the card, or your use of the card,
whichever occurs first.
TERMS USED IN THIS AGREEMENT: This Agreement and
Disclosure Statement (“Agreement”) covers your MasterCard®
Account (“Account”). In this Agreement, the words “you” and “your”
mean any person who signs the application or uses the Card. “We,”
“our,” and “us” mean PrimeWay Federal Credit Union, the issuer of
your Visa or its successors. The “Card” means any credit card issued
to you or those designated by you under the terms of this Agreement.
“Use of the Card” means any procedure used by you or someone
authorized by you, to make a purchase or an advance whether or not
the purchase or advance is evidenced by a signed written document.
“Unauthorized use of the Card” means the use of the Card by a
person, other than you, who does not have actual, implied, or
apparent authority for such use, and from which you receive no
benefit. In this Agreement, any plural terms shall be deemed singular
and any singular terms shall be deemed plural when context and
construction so require.
EXTENSION OF CREDIT: If your application is approved, we may, at
our discretion, establish an Account in your name and cause one or
more Cards to be issued to you or those designated by you. In such
event, you authorize us to pay for your Account all items reflecting
credit purchases and cash advances obtained through use of the
Card.
JOINT APPLICANT LIABILITY: If more than one person signs the
application, each of you shall be jointly and individually liable to us for
all charges made to the Account, including applicable fees. In
addition, you agree that each of you designates the other as agent for
the purpose of making purchases extended under this Agreement and
each use of your Account shall be an extension of credit to all. Notice
to one of you shall constitute notice to all. Any joint cardholder may
remove himself or herself from responsibility for future purchases at
any time by notifying us in writing. However, removal from the
Account does not release you from any liability already incurred.
CONVENIENCE CHECKS: We may issue checks at our discretion
that may be used for any purpose other than making a payment for
credit to your Account. By signing such checks, you authorize us to
pay the item for the amount indicated and post such amount as a
cash advance to your Account. We do not have to pay any item that
would cause the outstanding balance in your Account to exceed your
credit limit. Charges that apply in connection with the use of
Convenience Checks are set forth in the Additional Disclosures, which
are incorporated by reference into this Agreement and will be
provided to you after your application has been approved.
Convenience Check Charges will be assessed at the time they are
incurred.
OTHERS USING YOUR ACCOUNT: If you allow anyone else to use
your Account, you will be liable for all credit extended to such
persons. You promise to pay for all purchases and cash advances
made by anyone you authorize to use your Account, whether or not
you notify us that he or she will be using it. If someone else is
authorized to use your Account and you want to end that person’s
privilege, you must notify us in writing, and if he or she has a Card,
you must return the Card with your written notice for it to be effective.
CREDIT LIMITS: You promise that payments we make for your
Account resulting from use of the Card will at no time cause the

outstanding balance of your Account to exceed your credit limit as
established by us or as adjusted from time to time at our discretion.
Cash advances are limited to 50% of your credit limit. If you exceed
your credit limit, we can still charge you for all purchases and
advances without giving up any of our rights. If you write a
Convenience Check that causes you to exceed your credit limit, we
are under no obligation to pay such check, and it may be returned to
the payee unpaid at our option.
PROMISE TO PAY: You promise to pay us in U.S. dollars for (a) all
purchases, balance transfers, and cash advances made by you or
anyone whom you authorize to use the Card or Account; (b)
INTEREST CHARGES and other charges and fees; (c) collection
costs and attorney’s fees as permitted by applicable law, and any
costs incurred in the recovery of the Card; and (d) credit in excess of
your credit limit that we may extend to you. At the end of each
monthly billing cycle for which you have a balance on your Account,
you will be furnished with a periodic statement showing (i) the
“Previous Balance” (the outstanding balance in the Account at the
beginning of the billing cycle), (ii) the amount of all cash advances,
balance transfers, purchases, Late Payment Fees, INTEREST
CHARGES, and other charges and fees posted to your Account
during the billing cycle, (iii) the amount of all payments and credits
posted to your Account during the billing cycle, and (iv) the “New
Balance” which is the sum of (i) and (ii) minus (iii). You agree to pay
on or before the “Payment Due Date” shown on the monthly periodic
statement the entire New Balance or a Minimum Payment equal to an
amount which is at least 1% of the New Balance or $25 whichever is
greater, plus current fees and INTEREST charges, plus any amount in
excess of the credit limit established by us and any past due minimum
payments. If the New Balance is $25 or less, you agree to pay it in
full. You may make extra payments in advance of the due date
without a penalty, and you may repay any funds advanced, credit
extended, or amount outstanding at any time without a penalty for
early payment. Regardless of the amount of any extra payment during
a given month, a monthly payment will be required the following
month if a balance remains in your Account. Subject to applicable law,
your payments may be applied to what you owe the Credit Union in
any manner the Credit Union chooses.

COST OF CREDIT: You will pay an INTEREST CHARGE for all
advances made against your Account. INTEREST CHARGES for
cash advances begin to accrue on the date of the advance. New
purchases, including balance transfers, will not incur an INTEREST
CHARGE on the date they are posted to your Account if you have
paid the Account in full by the Payment Due Date shown on your
previous monthly statement, or if there was no previous balance. The
Payment Due Date will be not less than 25 days from the billing cycle
closing date shown on your statement. No additional INTEREST
CHARGE will be imposed on purchases whenever you pay the
Account in full on or before the Payment Due Date reflected on your
statement.
The ANNUAL PERCENTAGE RATE for all purchases and balance
transfers is variable and may increase. The ANNUAL PERCENTAGE
RATE is based on an index (the “Index”), which is the Prime Rate as
published in the Money Rates section of The Wall Street Journal on
the last business day of the calendar month and is subject to change
monthly. Any change in the Index will be effective on the first day of
the billing cycle following the date of the change. An increase in the
Index will result in an increase in the Daily Periodic Rate, which in
turn, may result in higher payments. The ANNUAL PERCENTAGE
RATE for all advances in any given billing cycle will be the Index plus
a margin. Your specific margin, initial Daily Periodic Rate, and
corresponding ANNUAL PERCENTAGE RATE are set forth in the
Additional Disclosures, which will be provided to you after your
application is approved.

The ANNUAL PERCENTAGE RATE for all cash advances is fixed at
17.95% ANNUAL PERCENTAGE RATE.
In addition to the variable-rate aspects of your Account, for all Card
types except for the Share Secured Card Account, the ANNUAL
PERCENTAGE RATE for all advances is also based on certain
creditworthiness criteria. Except for the Share Secured Card Account,
after your Account has been open for at least one year, we may
review your creditworthiness from time to time, including when you
request a credit limit increase, and adjust the periodic rate and
ANNUAL PERCENTAGE RATE for your Account by notifying you in
accordance with applicable law. If your ANNUAL PERCENTAGE
RATE is changed based on your creditworthiness, your margin for all
advances will be adjusted. The current range of periodic rates and
ANNUAL PERCENTAGE RATES applicable to your Account based
on the current Index are set forth in the Additional Disclosures.
Increases in your ANNUAL PERCENTAGE RATE due to changes in
your creditworthiness will remain in effect for at least six months and
may remain in effect indefinitely. Any change in your ANNUAL
PERCENTAGE RATE due to changes in your creditworthiness will
only apply to advances made after the effective date of the change.
Balances existing before the effective date of the change will remain
subject to the ANNUAL PERCENTATE RATE in effect before the date
of the change until paid in full.
A portion of the INTEREST CHARGE is figured by applying the
applicable Daily Periodic Rate to the Average Daily Balance of your
Account for each feature category, including certain current
transactions. Feature categories include purchases, balance
transfers, and cash advances. The Average Daily Balance is arrived
at by taking the beginning balance of each feature category each day
and adding any new transactions to the balance, except if you have
paid your Account in full by the Payment Due Date shown on the
previous monthly statement or there is no previous balance, new
purchases and new balance transfers are not added to their
respective feature category balances. Balance transfers may be
shown on your statement in the Promotions feature category. When
determining balances, we may combine feature category balances
that have the same periodic rate and other finance charge terms. We
then subtract any payments or credits and unpaid INTEREST
CHARGES allocated to the feature category balance for the day. This
gives us the daily balance for the feature category. The daily balances
for each feature category are then added together and divided by the
number of days in the billing cycle. The result is the Average Daily
Balance for each feature category. The periodic INTEREST CHARGE
is determined by multiplying each feature category Average Daily
Balance by the number of days in the billing cycle and applying the
applicable Daily Periodic Rate to the product. The Total INTEREST
CHARGE for each statement period is the sum of the periodic
INTEREST CHARGES for each feature category plus any nonperiodic INTEREST CHARGES.
CASH ADVANCE FEE: If your Account features Cash Advance Fee,
the amount of the Cash Advance Fee is set forth in the Additional
Disclosure.
LATE PAYMENT FEE: If we do not receive your required Minimum
Payment within ten (10) days of the Payment Due Date, we may
charge you a Late Payment Fee as set forth in the Additional
Disclosures.
RETURNED PAYMENT FEE: We will charge you a Returned
Payment Fee as set forth in the Additional Disclosures each time you
send us a payment that is returned unpaid for any reason. We will
charge you this fee the first time any payment is returned unpaid,
even if it is paid upon resubmission.
Late Payment Fees and Returned Payment Fees will be added to the
balance of your Account and treated as a purchase.

ANNUAL FEE: If your Account features an Annual Fee, an Annual
Fee as set forth in the Additional Disclosures will be charged to your
Account on or around the anniversary date of the opening of your
Account. The Annual Fee will be charged each year your Account is
open or has a balance due, even if charging privileges have been
terminated.
LIABILITY FOR UNAUTHORIZED USE: You may be liable for the
unauthorized use of your Card. If you notice the loss or theft of your
Card or a possible unauthorized use of your Card, you should call us
immediately at:
(713) 799-6200 or (800) 442-4757
You may also write us at:
PrimeWay Federal Credit Union
P.O. Box 53088
Houston, TX 77052-3088
Although you may write to notify us of unauthorized use, calling us
immediately at the telephone number(s) above is the best way to keep
your possible losses down.
Under MasterCard’s zero liability policy, you will not be liable for
any unauthorized use of your Visa once you notify us orally or in
writing of the loss, theft, or possible unauthorized use and you meet
the following conditions: (1) you have exercised reasonable care with
your Card; (2) you have not reported two or more incidents of
unauthorized use of your Card within the previous 12 months; and (3)
you have maintained your Account in good standing. MasterCard’s zero
liability policy does not apply to cash advances obtained at an ATM.
You will not be liable for any unauthorized use that occurs after you
notify us. You may, however, be liable for unauthorized use that
occurs before your notice to us. In any case, your liability will not
exceed $50.00.
CREDITING OF PAYMENTS: We do not charge for payments made
by regular mail service or other standard payment methods we offer. If
we charge a fee for any expedited payment service we offer, that fee
will be disclosed to you at the time you request the service. You may
submit payments by mail to our designated address, by telephone
through any expedited payment service we may offer, by Internet
through any payment service we may offer, and at any of our branch
offices. All payments made on your Account at the address
designated for payment on the monthly periodic statement or through
other approved payment methods will generally be applied to your
Account on the date of receipt. If the date of receipt for a mailed
payment is not a business day, your payment may not be credited
until the first business day following receipt. All payments on your
Account will be applied first to collection costs, then to any INTEREST
CHARGE and other fees due, and then to the unpaid principal
balance. However, in every case, in the event you make a payment in
excess of the required minimum periodic payment, the Credit Union
will allocate the excess amount first to the balance with the highest
annual percentage rate and any remaining portion to the other
balances in descending order based on applicable annual percentage
rate. Interest paid or agreed to be paid shall not exceed the maximum
amount permissible under applicable law, and in any contingency
whatsoever, if we shall receive anything of value deemed interest
under applicable law which would exceed the maximum amount of
interest permissible under applicable law, the excessive interest shall
be applied to the reduction of the unpaid principal amount or refunded
to you.

SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENSIONS MADE UNDER THIS
AGREEMENT. THE GRANTING OF THIS SECURITY INTEREST IS
A CONDITION FOR THE ISSUANCE OF ANY CARD THAT YOU
MAY USE, DIRECTLY OR INDIRECTLY, TO OBTAIN EXTENSIONS
OF CREDIT UNDER THIS AGREEMENT.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal
law if given as security are not subject to the security interest you are
giving.
ADDITIONAL SECURITY: If you have other loans with us, now or in
the future, collateral securing those loans may also secure your
obligations under this Agreement. You understand that you should
read any security agreement you sign in order to determine if the
collateral also secures your obligations under this Agreement and any
other agreements you have with us.
DEFAULT: You will be in default: (i) if you fail to make any payment
on time; (ii) if you exceed your authorized credit limit; (iii) if you fail to
keep any promises you have made under this or any other agreement
with us; (iv) if you become insolvent or are the subject of an order of
relief under Title 11 of the U.S. Code (Bankruptcy); (v) if anyone tries,
by legal process, to take any of your money maintained with us; (vi) if
you have given us false or inaccurate information in obtaining your
Card; (vii) if we reasonably believe that you are unable or unwilling to
repay your obligations to us; (viii) if you do not act or fail to do any act
which the Credit Union believes endangers your ability to repay what
you owe, including but not limited to, leaving your current
employment, or (ix) if you fail to report the Card lost or not in your
possession.
ACCELERATION: If you are in default, without notice to you we may
accelerate your debt and call any amounts you owe immediately due
and payable, plus INTEREST CHARGES that will continue to accrue
until the entire amount is paid. You expressly waive any right to notice
of our intent to accelerate and right to notice that your debt has been
accelerated. You agree that, once you are informed by the Credit
Union or its designee that your Account is in default, you will not
attempt to make further cash advances or purchases on the Account.
CREDIT INVESTIGATION: In conjunction with your application for
credit and, if approved, maintenance of your Account, you agree that
we have the right to investigate your credit and employment history, to
verify your credit references, to request and use credit reports.
NOTIFICATION ADDRESS FOR INFORMATION REPORTED TO
CONSUMER REPORTING AGENCIES: We may report the status
and payment history of your Account to credit reporting agencies each
month. Late payments, missed payments, or other defaults on your
Account may be reflected in your credit report. If you believe that the
information we have reported is inaccurate or incomplete, please
notify us in writing at PrimeWay Federal Credit Union, P.O. Box
53088, Houston, TX 77052-3088. Please include your name, address,
contact telephone number, and Account number, and identify the
information you believe is in error. If your notification relates to an
alleged incident of identity theft, we will require a copy of your identity
theft report filed with law enforcement authorities.
TERMINATION AND CHANGES: You may terminate this Agreement,
by written notice, as to future advances at any time. We can terminate
this Agreement at any time subject to such notice as may be required
by applicable law. Termination by either party shall not affect your
obligation to repay any payments made for your Account resulting

from use of the Card as well as INTEREST CHARGES and other
related charges. We may add to, change, or delete the terms of this
Agreement, including the Daily Periodic Rate and ANNUAL
PERCENTAGE RATE, at any time subject to such notice as may be
required by applicable law. If you use your Card or Account to make a
purchase or obtain a cash advance after having been given notice of
a change in terms, you agree that, to the extent permitted by law, the
existing balance in your Account at the time of that use will be subject
to the new terms, as shall subsequent uses.
ILLEGAL TRANSACTIONS: You may not use your Card or Account
for any illegal transaction. You agree that we may decline to process
any transaction that we believe in good faith to be for an illegal
purpose. You agree that we will not be liable for declining to process
any such transaction. If we do process any transaction that ultimately
is determined to have been for an illegal purpose, you agree that you
will remain liable to us under this Agreement for any such transaction
notwithstanding its illegal nature. You agree that any illegal use of the
Card will be deemed an act of default under this Agreement. You
further agree to waive any right to take legal action against us for your
illegal use of the Card and to indemnify and hold us Visa International,
Inc. harmless from and against any lawsuits, other legal action, or
liability that results directly or indirectly from such illegal use.

extension under this Agreement if you know there is a reasonable
probability that you will be unable to repay your obligation according
to the terms of the credit extension. You promise to inform us of any
new information which relates to your ability to repay your obligation.
You promise not to submit false or inaccurate information or willfully
conceal information regarding your creditworthiness, credit standing,
or credit capacity.

ADDITIONAL PROVISIONS: Each provision of this Agreement must
be considered part of the total Agreement and cannot in any way be
severed from it. However, if any provision of this Agreement is finally
determined to be void or unenforceable under any law, rule, or
regulation, all other provisions of this Agreement will remain valid and
enforceable. You understand that the validity, construction, and
enforcement of this Agreement is governed by the laws of the State of
Texas to the extent not preempted by applicable federal law, and it is
performable in Harris County, Texas. We do not warrant any
merchandise or services purchased by you with the Card. All
purchases and cash advances are extended at the option of the
merchant or cash-advancing financial institution and we are not
responsible for the refusal of any merchant or financial institution to
honor your Card. The Card remains our property at all times, and you
agree to immediately surrender the Card upon demand. You agree to
pay all reasonable costs of collection, including court costs and
attorney’s fees, and any costs incurred in the recovery of the Card.
We can accept late payments or partial payments, or checks or
money orders marked “payment in full” without losing any of our rights
under this Agreement. We can also delay enforcing any of our rights
under this Agreement without losing them. You expressly waive
presentment for payment, demand, protest, and notice of protest and
dishonor of same. You agree to give us prompt notice of any change
in your name, mailing address, telephone number or place of
employment. You promise not to obtain an advance or credit

•
•

The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
RECEIPT OF AND AGREEMENT TO TERMS AND CONDITIONS
OF AGREEMENT: By signing an application for the Card or by using
the Card, you agree to all the terms and conditions and promise to
perform all the obligations, requirements, and duties contained in this
Agreement, and you acknowledge receipt of a copy of this
Agreement.
PrimeWay Federal Credit Union, P.O. Box 53088, Houston, TX
77052-3088 issues your credit card under this Agreement.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
What to Do if You Find a Mistake on Your Statement

INTERNATIONAL TRANSACTIONS: If you effect an international
transaction with your MasterCard, Visa International Incorporated will
convert the charge into a U.S. dollar amount. Visa International will
use its currency conversion procedure, which is disclosed to
institutions that issue Visa cards. Currently the currency conversion
rate used by Visa International to determine the transaction amount in
U.S. dollars for such transactions is generally either a governmentmandated exchange rate or a wholesale exchange rate selected by
Visa International for the applicable currency on the day the
transaction is processed, which rate may differ from the applicable
rate on the date the transaction occurred or when the transaction is
posted to your Account. We will charge a Foreign Transaction Fee of
up to 1% in U.S. dollars on all international purchase, cash
disbursement, and Account credit transactions, even if there is no
currency conversion. There is no grace period in which to repay an
international transaction in order to avoid the assessment of the
Foreign Transaction Fee.

•

If you think there is an error on your statement, write to us at:
PrimeWay Federal Credit Union
Attn: Credit Card Department
P.O. Box 53088
Houston, TX 77052-3088
In your letter, give us the following information:
•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on
your statement, describe what you believe is wrong and
why you believe it is a mistake.

You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.

You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter

•
•

If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to
pay the amount in question along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your
statement is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that
you are questioning your statement. We must tell you the
name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even if
your bill is correct.

Your Rights if You are Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all
of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the
criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe your
statement is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report
you as delinquent on that amount.

PrimeWay Federal Credit Union
Attn: Credit Card Department
P.O. Box 53088
Houston, TX 77052-3088
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

CUSTOMER SERVICE: (800) 442-4757 - 24 hours a day/7 days a
week. (Please have Account information available).

